INDEX TO APPENDIX
Page No.
A.

Order Denying Petition for Rehearing
Ninth Circuit Court of Appeals .................................................................... 001
Filed July 9, 2020

B.

Order Denying Petition for Rehearing En Banc
Ninth Circuit Court of Appeals .................................................................... 002
Filed April 1, 2020

C.

Memorandum
Ninth Circuit Court of Appeals .................................................................... 012
Filed February 19, 2020

D.

Order Denying Amended Petition
United States District Court ........................................................................ 020
Filed May 11, 2018

E.

Order of Affirmance
Nevada Supreme Court ................................................................................ 036
Filed November 13, 2013

F.

Judgment of Conviction
Eighth Judicial District Court ...................................................................... 042
Filed April 24, 2007

App.001
Case: 18-16081, 07/09/2020, ID: 11747124, DktEntry: 56, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED
JUL 9 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

DEMONDRAY D. MAYO,
Petitioner-Appellant,

No. 18-16081
D.C. No. 3:09-cv-00316-MMD-WGC
District of Nevada, Reno

v.
STATE OF NEVADA; ATTORNEY
GENERAL FOR THE STATE OF
NEVADA,

ORDER

Respondents-Appellees.

Before: W. FLETCHER and R. NELSON, Circuit Judges, and SESSIONS,*
District Judge.
Petitioner-Appellant filed a petition for rehearing and rehearing en banc on
May 15, 2020 (Dkt. Entry 49). The panel has voted to deny the petition for
rehearing. Judges W. Fletcher and R. Nelson have voted to deny the petition for
rehearing en banc, and Judge Sessions so recommends.
The full court has been advised of the petition for rehearing en banc and no
judge of the court has requested a vote on whether to rehear the matter en banc.
Fed. R. App. P. 35.
The petition for rehearing and rehearing en banc is DENIED.

*

The Honorable William K. Sessions III, United States District Judge
for the District of Vermont, sitting by designation.

App.002

(1 of 10)

Case: 18-16081, 04/01/2020, ID: 11648158, DktEntry: 48-1, Page 1 of 6

FILED
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

DEMONDRAY D. MAYO,
Petitioner-Appellant,

APR 1 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 18-16081
D.C. No. 3:09-cv-00316-MMD-WGC
District of Nevada, Reno

v.
STATE OF NEVADA; ATTORNEY
GENERAL FOR THE STATE OF
NEVADA,

ORDER

Respondents-Appellees.

Before: W. FLETCHER and R. NELSON, Circuit Judges, and SESSIONS,*
District Judge.
The petition for panel rehearing is DENIED. Judges W. Fletcher and R.
Nelson vote to DENY the petition for rehearing en banc, and Judge Sessions so
recommends. The full court has been advised of the petition for rehearing en banc,
and no judge of the court has requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.
The memorandum disposition filed on February 19, 2020, is amended. The
amended memorandum disposition will be filed concurrently with this order.

*

The Honorable William K. Sessions III, United States District Judge
for the District of Vermont, sitting by designation.

App.003
Case: 18-16081, 04/01/2020, ID: 11648158, DktEntry: 48-1, Page 2 of 6

Subsequent petitions for panel rehearing and/or petitions for rehearing en banc may
be filed with respect to the amended memorandum disposition in accordance with
the requirements of Fed. R. App. P. 40 and 35.

2

(2 of 10)

App.004

(3 of 10)

Case: 18-16081, 04/01/2020, ID: 11648158, DktEntry: 48-1, Page 3 of 6

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
APR 1 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
DEMONDRAY D. MAYO,
Petitioner-Appellant,

No.

U.S. COURT OF APPEALS

18-16081

D.C. No.
3:09-cv-00316-MMD-WGC

v.
STATE OF NEVADA; ATTORNEY
GENERAL FOR THE STATE OF
NEVADA,

AMENDED
MEMORANDUM*

Respondents-Appellees.

Appeal from the United States District Court
for the District of Nevada
Miranda M. Du, Chief District Judge, Presiding
Argued and Submitted January 24, 2020
San Francisco, California
Before: W. FLETCHER and R. NELSON, Circuit Judges, and SESSIONS,**
District Judge.

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The Honorable William K. Sessions III, United States District Judge
for the District of Vermont, sitting by designation.

App.005

(4 of 10)

Case: 18-16081, 04/01/2020, ID: 11648158, DktEntry: 48-1, Page 4 of 6

Demondray Mayo appeals the district court’s denial of his petition for writ
of habeas corpus under 28 U.S.C.§ 2254. We have jurisdiction under 28 U.S.C. §§
1291 and 2253, and we affirm.
1. Mayo argues that the Nevada Supreme Court’s determination that his
guilty plea was knowing and voluntary was contrary to clearly established federal
law and based on an unreasonable determination of fact. This argument lacks
merit.
“A state court’s decision is an ‘unreasonable application’ of federal law only
if it is ‘objectively unreasonable[.]’” Riley v. Payne, 352 F.3d 1313, 1317 (9th Cir.
2003) (citation omitted). Here, the Nevada Supreme Court concluded that Mayo’s
plea was knowing, voluntary, and intelligent based on a rational evaluation of the
evidentiary record. See Boykin v. Alabama, 395 U.S. 238, 242-243 (1969). At the
plea canvass, Mayo stated that he was entering the plea freely and voluntarily; he
also answered multiple other questions suggesting that he understood what was
occurring. As the state supreme court held, the trial court “had the opportunity to
observe appellant’s demeanor during the plea canvass.” It also considered that
Mayo had been involved in directing several important decisions in his case.
Based on the record, the Nevada Supreme Court’s legal determination that the
Nevada district court did not abuse its discretion in determining Mayo’s plea was
knowing and voluntary was not objectively unreasonable.

2

18-16081

App.006

(5 of 10)

Case: 18-16081, 04/01/2020, ID: 11648158, DktEntry: 48-1, Page 5 of 6

Insofar as the state court’s factual findings are challenged, the “unreasonable
determination of fact” clause of 28 U.S. § 2254(d) requires that federal courts
“must be particularly deferential” to state court factual determinations. Lambert v.
Blodgett, 393 F.3d 943, 972 (9th Cir. 2004). Here, the Nevada Supreme Court
determined that Mayo’s plea was voluntary and knowing based on multiple facts in
the record. We find that the Nevada Supreme Court’s findings of fact regarding
Mayo’s plea are supported by the record and are reasonable.
2. Mayo asks this Court to expand the certificate of appealability (COA) to
consider his ineffective assistance of counsel claim. In order for this Court to grant
a certificate of appealability in a post-AEDPA habeas case such as this one, the
Petitioner must make “a substantial showing of the denial of a constitutional right.”
Slack v. McDaniel, 529 U.S. 473, 483 (2000). A Petitioner makes such a showing
(1) if he or she demonstrates that “reasonable jurists would find the district court’s
assessment of the constitutional claims debatable or wrong;” or (2) the issue
presented is “adequate to deserve encouragement to proceed further.” Id. at 48384. Mayo has not made such a showing.
Mayo does not present clear evidence in the record showing that his attorney
failed to meet a reasonable level of professional competence even though he did
not challenge the guilty plea based on intellectual deficits or medication that Mayo
was taking at the time. See Hill v. Lockhart, 474 U.S. 52, 58-59 (1985). In the

3

18-16081

App.007

(6 of 10)

Case: 18-16081, 04/01/2020, ID: 11648158, DktEntry: 48-1, Page 6 of 6

absence of clear evidence that Mayo was not able to understand instructions or
make decisions due to these reasons, counsel’s failure to raise them was not
necessarily or likely ineffective.
Additionally, while Mayo claims that he suffered prejudice on account of
counsel’s failure to raise these issues, he presents sparse evidence that he would
have changed his plea had counsel acted differently. The State of Nevada had a
fairly strong case against Mayo; multiple individuals had reported to the police that
Mayo had admitted to shooting Escoto-Gonzales. Mayo has not shown that he
made the decision to plead guilty in haste, in a state of confusion, or without
receiving multiple explanations of its consequences due to the negligence of
counsel. For these reasons, and in light of the significant deference accorded to a
state supreme court’s denial of an ineffective assistance of counsel claim,
reasonable jurists would likely not find the district court’s denial of Mayo’s Sixth
Amendment constitutional claim debatable or incorrect. See Cullen v. Pinholster,
563 U.S. 170, 173 (2011). This Court declines to hear this issue on appeal.
AFFIRMED.

4

18-16081

App.008

(7 of 10)

Case: 18-16081, 04/01/2020, ID: 11648158, DktEntry: 48-2, Page 1 of 4

United States Court of Appeals for the Ninth Circuit
Office of the Clerk
95 Seventh Street
San Francisco, CA 94103
Information Regarding Judgment and Post-Judgment Proceedings
Judgment
•
This Court has filed and entered the attached judgment in your case.
Fed. R. App. P. 36. Please note the filed date on the attached
decision because all of the dates described below run from that date,
not from the date you receive this notice.
Mandate (Fed. R. App. P. 41; 9th Cir. R. 41-1 & -2)
•
The mandate will issue 7 days after the expiration of the time for
filing a petition for rehearing or 7 days from the denial of a petition
for rehearing, unless the Court directs otherwise. To file a motion to
stay the mandate, file it electronically via the appellate ECF system
or, if you are a pro se litigant or an attorney with an exemption from
using appellate ECF, file one original motion on paper.
Petition for Panel Rehearing (Fed. R. App. P. 40; 9th Cir. R. 40-1)
Petition for Rehearing En Banc (Fed. R. App. P. 35; 9th Cir. R. 35-1 to -3)
(1)

A.
•

•

B.
•

Purpose (Panel Rehearing):
A party should seek panel rehearing only if one or more of the following
grounds exist:
Ź
A material point of fact or law was overlooked in the decision;
Ź
A change in the law occurred after the case was submitted which
appears to have been overlooked by the panel; or
Ź
An apparent conflict with another decision of the Court was not
addressed in the opinion.
Do not file a petition for panel rehearing merely to reargue the case.
Purpose (Rehearing En Banc)
A party should seek en banc rehearing only if one or more of the following
grounds exist:

Post Judgment Form - Rev. /201

1

App.009

(8 of 10)

Case: 18-16081, 04/01/2020, ID: 11648158, DktEntry: 48-2, Page 2 of 4

Ź
Ź
Ź

Consideration by the full Court is necessary to secure or maintain
uniformity of the Court’s decisions; or
The proceeding involves a question of exceptional importance; or
The opinion directly conflicts with an existing opinion by another
court of appeals or the Supreme Court and substantially affects a
rule of national application in which there is an overriding need for
national uniformity.

(2)

Deadlines for Filing:
•
A petition for rehearing may be filed within 14 days after entry of
judgment. Fed. R. App. P. 40(a)(1).
•
If the United States or an agency or officer thereof is a party in a civil case,
the time for filing a petition for rehearing is 45 days after entry of judgment.
Fed. R. App. P. 40(a)(1).
•
If the mandate has issued, the petition for rehearing should be
accompanied by a motion to recall the mandate.
•
See Advisory Note to 9th Cir. R. 40-1 (petitions must be received on the
due date).
•
An order to publish a previously unpublished memorandum disposition
extends the time to file a petition for rehearing to 14 days after the date of
the order of publication or, in all civil cases in which the United States or an
agency or officer thereof is a party, 45 days after the date of the order of
publication. 9th Cir. R. 40-2.

(3)

Statement of Counsel
•
A petition should contain an introduction stating that, in counsel’s
judgment, one or more of the situations described in the “purpose” section
above exist. The points to be raised must be stated clearly.

(4)

Form & Number of Copies (9th Cir. R. 40-1; Fed. R. App. P. 32(c)(2))
•
The petition shall not exceed 15 pages unless it complies with the
alternative length limitations of 4,200 words or 390 lines of text.
•
The petition must be accompanied by a copy of the panel’s decision being
challenged.
•
An answer, when ordered by the Court, shall comply with the same length
limitations as the petition.
•
If a pro se litigant elects to file a form brief pursuant to Circuit Rule 28-1, a
petition for panel rehearing or for rehearing en banc need not comply with
Fed. R. App. P. 32.

Post Judgment Form - Rev. /201

2

App.010

(9 of 10)

Case: 18-16081, 04/01/2020, ID: 11648158, DktEntry: 48-2, Page 3 of 4

•

•

The petition or answer must be accompanied by a Certificate of Compliance
found at Form 11, available on our website at www.ca9.uscourts.gov under
Forms.
You may file a petition electronically via the appellate ECF system. No paper copies are
required unless the Court orders otherwise. If you are a pro se litigant or an attorney
exempted from using the appellate ECF system, file one original petition on paper. No
additional paper copies are required unless the Court orders otherwise.

Bill of Costs (Fed. R. App. P. 39, 9th Cir. R. 39-1)
•
The Bill of Costs must be filed within 14 days after entry of judgment.
•
See Form 10 for additional information, available on our website at
www.ca9.uscourts.gov under Forms.
Attorneys Fees
•
Ninth Circuit Rule 39-1 describes the content and due dates for attorneys fees
applications.
•
All relevant forms are available on our website at www.ca9.uscourts.gov under Forms
or by telephoning (415) 355-7806.
Petition for a Writ of Certiorari
•
Please refer to the Rules of the United States Supreme Court at
www.supremecourt.gov
Counsel Listing in Published Opinions
•
Please check counsel listing on the attached decision.
•
If there are any errors in a published opinion, please send a letter in writing
within 10 days to:
Ź
Thomson Reuters; 610 Opperman Drive; PO Box 64526; Eagan, MN 55123
(Attn: Jean Green, Senior Publications Coordinator);
Ź
and electronically file a copy of the letter via the appellate ECF system by using
“File Correspondence to Court,” or if you are an attorney exempted from using
the appellate ECF system, mail the Court one copy of the letter.

Post Judgment Form - Rev. /201

3

App.011

(10 of 10)

Case: 18-16081, 04/01/2020, ID: 11648158, DktEntry: 48-2, Page 4 of 4

81,7('67$7(6&28572)$33($/6
)257+(1,17+&,5&8,7
)RUP%LOORI&RVWV
Instructions for this form: http://www.ca9.uscourts.gov/forms/form10instructions.pdf

WK&LU&DVH1XPEHU V
&DVH1DPH
7KH&OHUNLVUHTXHVWHGWRDZDUGFRVWVWR party name(s) 

,VZHDUXQGHUSHQDOW\RISHUMXU\WKDWWKHFRSLHVIRUZKLFKFRVWVDUHUHTXHVWHGZHUH
DFWXDOO\DQGQHFHVVDULO\SURGXFHGDQGWKDWWKHUHTXHVWHGFRVWVZHUHDFWXDOO\
H[SHQGHG
6LJQDWXUH

'DWH

(use “V>W\SHGQDPH@” to sign electronically-filed documents)
5(48(67('
(each column must be completed)

&2677$;$%/(
'2&80(176)((3$,'
([FHUSWVRI5HFRUG

1RRI
&RSLHV

3DJHVSHU
&RVWSHU3DJH
&RS\

727$/
&267





Brief; 1st, 2nd , and/or 3rd Brief on Cross-Appeal;
Intervenor Brief)





5HSO\%ULHI&URVV$SSHDO5HSO\%ULHI





6XSSOHPHQWDO%ULHI V





3ULQFLSDO%ULHI V (Opening Brief; Answering

3HWLWLRQIRU5HYLHZ'RFNHW)HH3HWLWLRQIRU:ULWRI0DQGDPXV'RFNHW)HH



727$/ 
*Example: Calculate 4 copies of 3 volumes of excerpts of record that total 500 pages [Vol. 1 (10 pgs.) +
Vol. 2 (250 pgs.) + Vol. 3 (240 pgs.)] as:
No. of Copies: 4; Pages per Copy: 500; Cost per Page: $.10 (or actual cost IF less than $.10);
TOTAL: 4 x 500 x $.10 = $200.
Feedback or questions about this form? Email us at forms@ca9.uscourts.gov

)RUP

Rev. 12/01/2018

App.012

(1 of 8)

Case: 18-16081, 02/19/2020, ID: 11601460, DktEntry: 46-1, Page 1 of 4

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
FEB 19 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT

DEMONDRAY D. MAYO,
Petitioner-Appellant,

No.

U.S. COURT OF APPEALS

18-16081

D.C. No.
3:09-cv-00316-MMD-WGC

v.
STATE OF NEVADA; ATTORNEY
GENERAL FOR THE STATE OF
NEVADA,

MEMORANDUM*

Respondents-Appellees.
Appeal from the United States District Court
for the District of Nevada
Miranda M. Du, Chief District Judge, Presiding
Argued and Submitted January 24, 2020
San Francisco, California
Before: W. FLETCHER and R. NELSON, Circuit Judges, and SESSIONS,**
District Judge.

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The Honorable William K. Sessions III, United States District Judge
for the District of Vermont, sitting by designation.

App.013

(2 of 8)

Case: 18-16081, 02/19/2020, ID: 11601460, DktEntry: 46-1, Page 2 of 4

Demondray Mayo appeals the district court’s denial of his petition for writ
of habeas corpus under 28 U.S.C.§ 2254. We have jurisdiction under 28 U.S.C. §§
1291 and 2253, and we affirm.
1. Mayo argues that the Nevada Supreme Court’s determination that his
guilty plea was knowing and voluntary was contrary to clearly established federal
law and based on an unreasonable determination of fact. This argument lacks
merit.
“A state court’s decision is an ‘unreasonable application’ of federal law only
if it is ‘objectively unreasonable[.]’” Riley v. Payne, 352 F.3d 1313, 1317 (9th Cir.
2003) (citation omitted). Here, the Nevada Supreme Court concluded that Mayo’s
plea was knowing, voluntary, and intelligent based on a rational evaluation of the
evidentiary record. See Boykin v. Alabama, 395 U.S. 238, 242-243 (1969). At the
plea canvass, Mayo stated that he was entering the plea freely and voluntarily; he
also answered multiple other questions suggesting that he understood what was
occurring. The state supreme court further found that the transcript of Mayo’s
interview with the police prior to the hearing “reflects that Mayo was lucid,
described his versions of events with some detail,” and provided a consistent set of
facts to the officers. According to the Nevada Supreme Court, Mayo’s
comportment during this interview reflected sufficient intellectual capability for
the trial court to have determined that he was competent to enter the plea. Based on

2

18-16081

App.014

(3 of 8)

Case: 18-16081, 02/19/2020, ID: 11601460, DktEntry: 46-1, Page 3 of 4

the record, the Nevada Supreme Court’s legal determination was not objectively
unreasonable.
Insofar as the state court’s factual findings are challenged, the “unreasonable
determination of fact” clause of 28 U.S. § 2254(d) requires that federal courts
“must be particularly deferential” to state court factual determinations. Lambert v.
Blodgett, 393 F.3d 943, 972 (9th Cir. 2004). Here, the Nevada Supreme Court’s
determined that Mayo’s plea was voluntary and knowing based on multiple facts in
the record. We find that the Nevada Supreme Court’s findings of fact regarding
Mayo’s plea are supported by the record and are reasonable.
2. Mayo asks this Court to expand the certificate of appealability (COA) to
consider his ineffective assistance of counsel claim. In order for this Court to grant
a certificate of appealability in a post-AEDPA habeas case such as this one, the
Petitioner must make “a substantial showing of the denial of a constitutional right.”
Slack v. McDaniel, 529 U.S. 473, 483 (2000). A Petitioner makes such a showing
(1) if he or she demonstrates that “reasonable jurists would find the district court’s
assessment of the constitutional claims debatable or wrong;” or (2) the issue
presented is “adequate to deserve encouragement to proceed further.” Id. at 48384. Mayo has not made such a showing.
Mayo does not present clear evidence in the record showing that his attorney
failed to meet a reasonable level of professional competence even though he did

3

18-16081

App.015

(4 of 8)

Case: 18-16081, 02/19/2020, ID: 11601460, DktEntry: 46-1, Page 4 of 4

not challenge the guilty plea based on intellectual deficits or medication that Mayo
was taking at the time. See Hill v. Lockhart, 474 U.S. 52, 58-59 (1985). In the
absence of clear evidence that Mayo was not able to understand instructions or
make decisions due to these reasons, counsel’s failure to raise them was not
necessarily or likely ineffective.
Additionally, while Mayo claims that he suffered prejudice on account of
counsel’s failure to raise these issues, he presents sparse evidence that he would
have changed his plea had counsel acted differently. The State of Nevada had a
fairly strong case against Mayo; multiple individuals had reported to the police that
Mayo had admitted to shooting Escoto-Gonzales. Mayo has not shown that he
made the decision to plead guilty in haste, in a state of confusion, or without
receiving multiple explanations of its consequences due to the negligence of
counsel. For these reasons, and in light of the significant deference accorded to a
state supreme court’s denial of an ineffective assistance of counsel claim,
reasonable jurists would likely not find the district court’s denial of Mayo’s Sixth
Amendment constitutional claim debatable or incorrect. See Cullen v. Pinholster,
563 U.S. 170, 173 (2011). This Court declines to hear this issue on appeal.
AFFIRMED.

4

18-16081

App.016

(5 of 8)

Case: 18-16081, 02/19/2020, ID: 11601460, DktEntry: 46-2, Page 1 of 4

United States Court of Appeals for the Ninth Circuit
Office of the Clerk
95 Seventh Street
San Francisco, CA 94103
Information Regarding Judgment and Post-Judgment Proceedings
Judgment
•
This Court has filed and entered the attached judgment in your case.
Fed. R. App. P. 36. Please note the filed date on the attached
decision because all of the dates described below run from that date,
not from the date you receive this notice.
Mandate (Fed. R. App. P. 41; 9th Cir. R. 41-1 & -2)
•
The mandate will issue 7 days after the expiration of the time for
filing a petition for rehearing or 7 days from the denial of a petition
for rehearing, unless the Court directs otherwise. To file a motion to
stay the mandate, file it electronically via the appellate ECF system
or, if you are a pro se litigant or an attorney with an exemption from
using appellate ECF, file one original motion on paper.
Petition for Panel Rehearing (Fed. R. App. P. 40; 9th Cir. R. 40-1)
Petition for Rehearing En Banc (Fed. R. App. P. 35; 9th Cir. R. 35-1 to -3)
(1)

A.
•

•

B.
•

Purpose (Panel Rehearing):
A party should seek panel rehearing only if one or more of the following
grounds exist:
Ź
A material point of fact or law was overlooked in the decision;
Ź
A change in the law occurred after the case was submitted which
appears to have been overlooked by the panel; or
Ź
An apparent conflict with another decision of the Court was not
addressed in the opinion.
Do not file a petition for panel rehearing merely to reargue the case.
Purpose (Rehearing En Banc)
A party should seek en banc rehearing only if one or more of the following
grounds exist:

Post Judgment Form - Rev. /201

1

App.017

(6 of 8)

Case: 18-16081, 02/19/2020, ID: 11601460, DktEntry: 46-2, Page 2 of 4

Ź
Ź
Ź

Consideration by the full Court is necessary to secure or maintain
uniformity of the Court’s decisions; or
The proceeding involves a question of exceptional importance; or
The opinion directly conflicts with an existing opinion by another
court of appeals or the Supreme Court and substantially affects a
rule of national application in which there is an overriding need for
national uniformity.

(2)

Deadlines for Filing:
•
A petition for rehearing may be filed within 14 days after entry of
judgment. Fed. R. App. P. 40(a)(1).
•
If the United States or an agency or officer thereof is a party in a civil case,
the time for filing a petition for rehearing is 45 days after entry of judgment.
Fed. R. App. P. 40(a)(1).
•
If the mandate has issued, the petition for rehearing should be
accompanied by a motion to recall the mandate.
•
See Advisory Note to 9th Cir. R. 40-1 (petitions must be received on the
due date).
•
An order to publish a previously unpublished memorandum disposition
extends the time to file a petition for rehearing to 14 days after the date of
the order of publication or, in all civil cases in which the United States or an
agency or officer thereof is a party, 45 days after the date of the order of
publication. 9th Cir. R. 40-2.

(3)

Statement of Counsel
•
A petition should contain an introduction stating that, in counsel’s
judgment, one or more of the situations described in the “purpose” section
above exist. The points to be raised must be stated clearly.

(4)

Form & Number of Copies (9th Cir. R. 40-1; Fed. R. App. P. 32(c)(2))
•
The petition shall not exceed 15 pages unless it complies with the
alternative length limitations of 4,200 words or 390 lines of text.
•
The petition must be accompanied by a copy of the panel’s decision being
challenged.
•
An answer, when ordered by the Court, shall comply with the same length
limitations as the petition.
•
If a pro se litigant elects to file a form brief pursuant to Circuit Rule 28-1, a
petition for panel rehearing or for rehearing en banc need not comply with
Fed. R. App. P. 32.

Post Judgment Form - Rev. /201

2

App.018

(7 of 8)

Case: 18-16081, 02/19/2020, ID: 11601460, DktEntry: 46-2, Page 3 of 4

•

•

The petition or answer must be accompanied by a Certificate of Compliance
found at Form 11, available on our website at www.ca9.uscourts.gov under
Forms.
You may file a petition electronically via the appellate ECF system. No paper copies are
required unless the Court orders otherwise. If you are a pro se litigant or an attorney
exempted from using the appellate ECF system, file one original petition on paper. No
additional paper copies are required unless the Court orders otherwise.

Bill of Costs (Fed. R. App. P. 39, 9th Cir. R. 39-1)
•
The Bill of Costs must be filed within 14 days after entry of judgment.
•
See Form 10 for additional information, available on our website at
www.ca9.uscourts.gov under Forms.
Attorneys Fees
•
Ninth Circuit Rule 39-1 describes the content and due dates for attorneys fees
applications.
•
All relevant forms are available on our website at www.ca9.uscourts.gov under Forms
or by telephoning (415) 355-7806.
Petition for a Writ of Certiorari
•
Please refer to the Rules of the United States Supreme Court at
www.supremecourt.gov
Counsel Listing in Published Opinions
•
Please check counsel listing on the attached decision.
•
If there are any errors in a published opinion, please send a letter in writing
within 10 days to:
Ź
Thomson Reuters; 610 Opperman Drive; PO Box 64526; Eagan, MN 55123
(Attn: Jean Green, Senior Publications Coordinator);
Ź
and electronically file a copy of the letter via the appellate ECF system by using
“File Correspondence to Court,” or if you are an attorney exempted from using
the appellate ECF system, mail the Court one copy of the letter.

Post Judgment Form - Rev. /201

3

App.019

(8 of 8)

Case: 18-16081, 02/19/2020, ID: 11601460, DktEntry: 46-2, Page 4 of 4

81,7('67$7(6&28572)$33($/6
)257+(1,17+&,5&8,7
)RUP%LOORI&RVWV
Instructions for this form: http://www.ca9.uscourts.gov/forms/form10instructions.pdf

WK&LU&DVH1XPEHU V
&DVH1DPH
7KH&OHUNLVUHTXHVWHGWRDZDUGFRVWVWR party name(s) 

,VZHDUXQGHUSHQDOW\RISHUMXU\WKDWWKHFRSLHVIRUZKLFKFRVWVDUHUHTXHVWHGZHUH
DFWXDOO\DQGQHFHVVDULO\SURGXFHGDQGWKDWWKHUHTXHVWHGFRVWVZHUHDFWXDOO\
H[SHQGHG
6LJQDWXUH

'DWH

(use “V>W\SHGQDPH@” to sign electronically-filed documents)
5(48(67('
(each column must be completed)

&2677$;$%/(
'2&80(176)((3$,'
([FHUSWVRI5HFRUG

1RRI
&RSLHV

3DJHVSHU
&RVWSHU3DJH
&RS\

727$/
&267





Brief; 1st, 2nd , and/or 3rd Brief on Cross-Appeal;
Intervenor Brief)





5HSO\%ULHI&URVV$SSHDO5HSO\%ULHI





6XSSOHPHQWDO%ULHI V





3ULQFLSDO%ULHI V (Opening Brief; Answering

3HWLWLRQIRU5HYLHZ'RFNHW)HH3HWLWLRQIRU:ULWRI0DQGDPXV'RFNHW)HH



727$/ 
*Example: Calculate 4 copies of 3 volumes of excerpts of record that total 500 pages [Vol. 1 (10 pgs.) +
Vol. 2 (250 pgs.) + Vol. 3 (240 pgs.)] as:
No. of Copies: 4; Pages per Copy: 500; Cost per Page: $.10 (or actual cost IF less than $.10);
TOTAL: 4 x 500 x $.10 = $200.
Feedback or questions about this form? Email us at forms@ca9.uscourts.gov

)RUP

Rev. 12/01/2018

App.020
Case 3:09-cv-00316-MMD-WGC Document 58 Filed 05/11/18 Page 1 of 16

1
2
3
4
5
6

UNITED STATES DISTRICT COURT

7

DISTRICT OF NEVADA

8

***

9

DEMONDRAY D. MAYO,

10
11
12

Petitioner,

v.

ORDER

NEVADA, STATE OF, et al.,
Respondents.

13
14

Case No. 3:09-cv-00316-MMD-WGC

I.

SUMMARY
Before the Court is Petitioner Demondray D. Mayo’s first-amended 28 U.S.C. §

15
16

2254 habeas petition for adjudication on the merits (ECF No. 17).

17

II.

BACKGROUND & PROCEDURAL HISTORY

18

On September 6, 2006, Mayo pleaded guilty to second-degree murder with use of

19

a deadly weapon. (ECF No. 19-7.) He was sixteen at the time of the crime and seventeen

20

when the state district court sentenced him to a term of life with the possibility of parole

21

after ten years, with an equal and consecutive term of life with the possibility of parole

22

after ten years for the deadly weapon enhancement, with 629 days’ credit for time served.

23

(ECF No. 19-25.) The court entered the judgment of conviction on April 23, 2007. Id.

24

Mayo filed a motion to correct illegal sentence/withdraw guilty plea on November

25

9, 2007. (ECF No. 19-26.) The Nevada Supreme Court affirmed the denial of that motion

26

on January 30, 2009, and remittitur issued on February 24, 2009. (ECF No. 20-4; ECF

27

No. 20-6.)

28

///

App.021
Case 3:09-cv-00316-MMD-WGC Document 58 Filed 05/11/18 Page 2 of 16

1

Ultimately, the Nevada Supreme Court affirmed Mayo’s conviction on November

2

13, 2013, and remittitur issued on December 10, 2013. (ECF No. 45-25; ECF No. 45-26.)

3

On December 8, 2015, the Nevada Supreme Court affirmed the denial of Mayo’s

4

counseled, state postconviction habeas corpus petition, and remittitur issued on January

5

12, 2016. (ECF No. 47-7; ECF No. 47-8.)

6

In the meantime, Mayo had dispatched his federal habeas petition for mailing on

7

or about May 25, 2009. (ECF No. 8.) This court granted Mayo’s motion for appointment

8

of counsel. (ECF No. 7.) Mayo filed a counseled, first-amended petition. (ECF No. 17.)

9

On June 20, 2011, this court granted Mayo’s motion to stay and abey these proceedings

10

pending the conclusion of his state-court proceedings. (ECF No. 39.)

11

On April 22, 2016, the court granted Mayo’s motion to reopen the case. (ECF No.

12

49.) Respondents have now answered the petition, and Mayo replied. (ECF Nos. 52, 55.)

13

III.

LEGAL STANDARDS

14

A.

15

28 U.S.C. § 2254(d), a provision of the Antiterrorism and Effective Death Penalty

16

Act (“AEDPA”), provides the legal standards for this court’s consideration of the petition

17

in this case:

18
19
20
21
22
23
24

Antiterrorism and Effective Death Penalty Act

An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect
to any claim that was adjudicated on the merits in State court proceedings
unless the adjudication of the claim ―
(1)
resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined
by the Supreme Court of the United States; or
(2)
resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State
court proceeding.

25

The AEDPA “modified a federal habeas court’s role in reviewing state prisoner

26

applications in order to prevent federal habeas ‘retrials’ and to ensure that state-court

27

convictions are given effect to the extent possible under law.” Bell v. Cone, 535 U.S. 685,

28

693-694 (2002). This Court’s ability to grant a writ is limited to cases where “there is no
2

App.022
Case 3:09-cv-00316-MMD-WGC Document 58 Filed 05/11/18 Page 3 of 16

1

possibility fair-minded jurists could disagree that the state court’s decision conflicts with

2

[Supreme Court] precedents.” Harrington v. Richter, 562 U.S. 86, 102 (2011). The

3

Supreme Court has emphasized “that even a strong case for relief does not mean the

4

state court’s contrary conclusion was unreasonable.” Id. (citing Lockyer v. Andrade, 538

5

U.S. 63, 75 (2003)); see also Cullen v. Pinholster, 563 U.S. 170, 181 (2011) (describing

6

the AEDPA standard as “a difficult to meet and highly deferential standard for evaluating

7

state-court rulings, which demands that state-court decisions be given the benefit of the

8

doubt”) (internal quotation marks and citations omitted).

9

A state court decision is contrary to clearly established Supreme Court precedent,

10

within the meaning of 28 U.S.C. § 2254, “if the state court applies a rule that contradicts

11

the governing law set forth in [the Supreme Court’s] cases” or “if the state court confronts

12

a set of facts that are materially indistinguishable from a decision of [the Supreme Court]

13

and nevertheless arrives at a result different from [the Supreme Court’s] precedent.”

14

Lockyer, 538 U.S. at 73 (quoting Williams v. Taylor, 529 U.S. 362, 405-06 (2000), and

15

citing Bell, 535 U.S. at 694).

16

A state court decision is an unreasonable application of clearly established

17

Supreme Court precedent, within the meaning of 28 U.S.C. § 2254(d), “if the state court

18

identifies the correct governing legal principle from [the Supreme Court’s] decisions but

19

unreasonably applies that principle to the facts of the prisoner’s case.” Lockyer, 538 U.S.

20

at 74 (quoting Williams, 529 U.S. at 413). The “unreasonable application” clause requires

21

the state court decision to be more than incorrect or erroneous; the state court’s

22

application of clearly established law must be objectively unreasonable. Id. (quoting

23

Williams, 529 U.S. at 409).

24

To the extent that the state court’s factual findings are challenged, the

25

“unreasonable determination of fact” clause of Section 2254(d)(2) controls on federal

26

habeas review. E.g., Lambert v. Blodgett, 393 F.3d 943, 972 (9th Cir. 2004). This clause

27

requires that the federal courts “must be particularly deferential” to state court factual

28

determinations. Id. The governing standard is not satisfied by a showing merely that the
3

App.023
Case 3:09-cv-00316-MMD-WGC Document 58 Filed 05/11/18 Page 4 of 16

1

state court finding was “clearly erroneous.” Lambert, 393 F.3d at 973. Rather, AEDPA

2

requires substantially more deference:

3
4
5
6

[I]n concluding that a state-court finding is unsupported by substantial
evidence in the state-court record, it is not enough that we would reverse in
similar circumstances if this were an appeal from a district court decision.
Rather, we must be convinced that an appellate panel, applying the normal
standards of appellate review, could not reasonably conclude that the
finding is supported by the record.

7

Taylor v. Maddox, 366 F.3d 992, 1000 (9th Cir.2004); see also Lambert, 393 F.3d at 972.

8

Under 28 U.S.C. § 2254(e)(1), state court factual findings are presumed to be

9

correct unless rebutted by clear and convincing evidence. The petitioner bears the burden

10

of proving by a preponderance of the evidence that he is entitled to habeas relief. Cullen,

11

563 U.S. at 181. Finally, in conducting an AEDPA analysis, this court looks to the last

12

reasoned state-court decision. Murray v. Schriro, 745 F.3d 984, 996 (9th Cir. 2014).

13

A state prisoner is entitled to federal habeas relief only if he is being held in custody

14

in violation of the constitution, laws, or treaties of the United States. 28 U.S.C. § 2254(a).

15

Unless an issue of federal constitutional or statutory law is implicated by the facts

16

presented, the claim is not cognizable under federal habeas corpus. Estelle v. McGuire,

17

502 U.S. 62, 68 (1991). A petitioner may not transform a state-law issue into a federal

18

one merely by asserting a violation of due process. Langford v. Day, 110 F.3d 1380, 1381

19

(9th Cir. 1996). Alleged errors in the interpretation or application of state law do not

20

warrant habeas relief. Hubbart v. Knapp, 379 F.3d 773, 779-80 (9th Cir. 2004).

21

B.

Ineffective Assistance of Counsel

22

Ineffective assistance of counsel claims are governed by the two-part test

23

announced in Strickland v. Washington, 466 U.S. 668 (1984). In Strickland, the Supreme

24

Court held that a petitioner claiming ineffective assistance of counsel has the burden of

25

demonstrating that (1) the attorney made errors so serious that he or she was not

26

functioning as the “counsel” guaranteed by the Sixth Amendment, and (2) that the

27

deficient performance prejudiced the defense. Williams, 529 U.S. at 390-91 (citing

28

Strickland, 466 U.S. at 687). To establish ineffectiveness, the defendant must show that
4

App.024
Case 3:09-cv-00316-MMD-WGC Document 58 Filed 05/11/18 Page 5 of 16

1

counsel’s representation fell below an objective standard of reasonableness. Id. To

2

establish prejudice, the defendant must show that there is a reasonable probability that,

3

but for counsel’s unprofessional errors, the result of the proceeding would have been

4

different. Id. A reasonable probability is “probability sufficient to undermine confidence in

5

the outcome.” Id. Additionally, any review of the attorney’s performance must be “highly

6

deferential” and must adopt counsel’s perspective at the time of the challenged conduct,

7

in order to avoid the distorting effects of hindsight. Id. at 689. It is the petitioner’s burden

8

to overcome the presumption that counsel’s actions might be considered sound trial

9

strategy. Id.

10

Ineffective assistance of counsel under Strickland requires a showing of deficient

11

performance of counsel resulting in prejudice, “with performance being measured against

12

an objective standard of reasonableness . . . under prevailing professional norms.”

13

Rompilla v. Beard, 545 U.S. 374, 380 (2005) (internal quotations and citations omitted).

14

When the ineffective assistance of counsel claim is based on a challenge to a guilty plea,

15

the Strickland prejudice prong requires a petitioner to demonstrate “that there is a

16

reasonable probability that, but for counsel’s errors, he would not have pleaded guilty and

17

would have insisted on going to trial.” Hill v. Lockhart, 474 U.S. 52, 59 (1985).

18

If the state court has already rejected an ineffective assistance claim, a federal

19

habeas court may only grant relief if that decision was contrary to, or an unreasonable

20

application of, the Strickland standard. See Yarborough v. Gentry, 540 U.S. 1, 5 (2003).

21

There is a strong presumption that counsel’s conduct falls within the wide range of

22

reasonable professional assistance. Id.

23

The United States Supreme Court has described federal review of a state supreme

24

court’s decision on a claim of ineffective assistance of counsel as “doubly deferential.”

25

Cullen, 563 U.S. at 190 (quoting Knowles v. Mirzayance, 129 S.Ct. 1411, 1413 (2009)).

26

The Supreme Court emphasized that: “We take a ‘highly deferential’ look at counsel’s

27

performance through the ‘deferential lens of § 2254(d).’” Id. (internal citations omitted).

28

Moreover, federal habeas review of an ineffective assistance of counsel claim is limited
5

App.025
Case 3:09-cv-00316-MMD-WGC Document 58 Filed 05/11/18 Page 6 of 16

1

to the record before the state court that adjudicated the claim on the merits. Cullen, 563

2

U.S. at 181-84. The United States Supreme Court has specifically reaffirmed the

3

extensive deference owed to a state court’s decision regarding claims of ineffective

4

assistance of counsel:

5

9

Establishing that a state court’s application of Strickland was unreasonable
under § 2254(d) is all the more difficult. The standards created by Strickland
and § 2254(d) are both “highly deferential,” and when the two apply in
tandem, review is “doubly” so. The Strickland standard is a general one, so
the range of reasonable applications is substantial. Federal habeas courts
must guard against the danger of equating unreasonableness under
Strickland with unreasonableness under § 2254(d). When § 2254(d)
applies, the question is whether there is any reasonable argument that
counsel satisfied Strickland’s deferential standard.

10

Harrington, 562 U.S. at 105 (internal citations omitted). “A court considering a claim of

11

ineffective assistance of counsel must apply a ‘strong presumption’ that counsel’s

12

representation was within the ‘wide range’ of reasonable professional assistance.” Id. at

13

104 (quoting Strickland, 466 U.S. at 689). “The question is whether an attorney’s

14

representation amounted to incompetence under prevailing professional norms, not

15

whether it deviated from best practices or most common custom.” Id. (internal quotations

16

and citations omitted).

6
7
8

17

Mayo pleaded guilty upon the advice of counsel, thus he “may only attack the

18

voluntary and intelligent character of the guilty plea by showing that the advice he

19

received from counsel was [ineffective] . . . . and that there is a reasonable probability

20

that, but for counsel’s errors, he would not have pleaded guilty and would have insisted

21

on going to trial.” Hill, 474 U.S. at 56-57, 59; Lambert, 393 F.3d at 980-81.

22

IV.

INSTANT PETITION

23

A.

24

Mayo asserts that the mandatory deadly weapon enhancement to his sentence

25

pursuant to NRS § 193.165 violated his Fifth Amendment due process right to

26

individualized sentencing. (ECF No. 17 at 6-8.) At the time of the crime, as well as at the

27

time Mayo was sentenced in April 2007, NRS § 193.165 prescribed a mandatory

28

consecutive sentence equal to that imposed for the underlying crime. Effective July 1,

Ground 1

6

App.026
Case 3:09-cv-00316-MMD-WGC Document 58 Filed 05/11/18 Page 7 of 16

1

2007, the Nevada legislature changed the statute to require the imposition of a

2

consecutive term of one to twenty years for the deadly weapon enhancement and to

3

require that the court state on the record that it had considered several factors in

4

exercising its discretion, including the facts and circumstances of the crime and the

5

offender’s criminal history.

6

In Mayo’s reply in support of the petition, he argues that the imposition of the

7

mandatory equal and consecutive sentence for the use of a deadly weapon enhancement

8

on a juvenile violated his right to individualized sentencing and his Eighth Amendment

9

right to be free from cruel and unusual punishment. (ECF No. 55 at 6-9.)

10

The Nevada Supreme Court rejected this claim, explaining:

11

A few months after sentencing, the Legislature amended NRS [§] 193.165
to eliminate the equal and consecutive sentence required to be imposed for
a deadly weapon enhancement. This court has held, however, “that the
penalty for the use of a deadly weapon should be the one in effect at the
time the defendant used a weapon to commit the primary offense.” Because
the imposition of an equal and consecutive term was required at the time
appellant committed his crime, the district court did not abuse its discretion
by imposing it, and appellant does not adequately explain how imposing the
enhancement was unconstitutional.

12
13
14
15
16
17

(ECF No. 45-25 at 5-6 (internal citations omitted).)

18

Mayo now argues that the Nevada Supreme Court’s decision was unreasonable

19

in light of the U.S. Supreme Court decisions in Miller v. Alabama, 567 U.S. 460 (2012),

20

and Graham v. Florida, 560 U.S. 48 (2010). In Graham, the Court held that a sentence of

21

life without parole for a juvenile for a nonhomicide offense is cruel and unusual

22

punishment in violation of the Eighth Amendment. 560 U.S. at 82. Subsequently, the

23

Court concluded in Miller that mandatory life without parole sentences for those under

24

age eighteen at the time of their crimes violate the Eighth Amendment. 567 U.S. at 465;

25

see also Montgomery v. Louisiana, 136 S.Ct. 718, 732-34, 736 (2016) (finding that Miller

26

v. Alabama announced a substantive rule of constitutional law that is retroactive).

27

The Court in Miller and Graham discusses the constitutional requirement of

28

individualized sentencing for defendants facing the most serious penalties. In Miller, the
7

App.027
Case 3:09-cv-00316-MMD-WGC Document 58 Filed 05/11/18 Page 8 of 16

1

Court held that the confluence of two lines of precedent led it to conclude that mandatory

2

life-without-parole sentences for juveniles violate the Eighth Amendment. 567 U.S. at 470.

3

The Court noted the evolution of a foundational principle that “imposition of a State’s most

4

severe penalties on juvenile offenders cannot proceed as though they were not children.”

5

Id. at 474.

6

While Graham and Miller show how federal constitutional law continues to evolve

7

in relation to juvenile offenders, they do not dictate that Mayo is entitled to habeas relief

8

here. Mayo points to no federal constitutional law that has been clearly established by the

9

U.S. Supreme Court that the state district court’s imposition of the deadly weapon

10

enhancement mandated by the state statute in force at the time sixteen-year-old Mayo

11

committed his crime violated his federal constitutional rights. In the absence of any such

12

clearly established federal constitutional law, the question of the application of the Nevada

13

statute is purely a state-law issue.

14

Respondents are correct that Mayo has failed to demonstrate that the Nevada

15

Supreme Court’s decision on federal ground 1 was contrary to, or involved an

16

unreasonable application of, clearly established federal law, as determined by the U.S.

17

Supreme Court, or was based on an unreasonable determination of the facts in light of

18

the evidence presented in the state court proceeding. 28 U.S.C. § 2254(d); see also, e.g.,

19

Carey v. Musladin, 549 U.S. 70, 77 (2006) (holding that, where Supreme Court case law

20

does not give a clear answer to the question presented, state court’s decision on the issue

21

must be given deference under § 2254(d)(1)). Federal habeas relief is denied as to

22

ground 1.

23

B.

24

Mayo alleges that he did not enter a voluntary, intelligent, and knowing guilty plea

25

in violation of his Fifth and Fourteenth Amendment due process rights due to (1) his

26

intellectual deficits and emotional instability; (2) the impact of prescribed medications on

27

his intellectual functioning; (3) the trial court’s failure to accommodate his intellectual

28

///

Ground 3

8

App.028
Case 3:09-cv-00316-MMD-WGC Document 58 Filed 05/11/18 Page 9 of 16

1

limitations during the plea canvass; and (4) the trial court’s failure to explain the elements

2

of the charged crimes during the plea canvass. (ECF No. 17 at 10-18.)

3

A guilty plea must be made knowingly, voluntarily and intelligently; such inquiry

4

focuses on whether the defendant was aware of the direct consequences of his plea.

5

Boykin v. Alabama, 395 U.S. 238, 242-43 (1969); see also Brady v. U.S., 397 U.S. 742,

6

748 (1970) (“Waivers of constitutional rights not only must be voluntary but must be

7

knowing, intelligent acts done with sufficient awareness of the relevant circumstances and

8

likely consequences.”). A criminal defendant may not plead guilty unless he does so

9

competently and intelligently. Godinez v. Moran, 509 U.S. 389, 396 (1993). The

10

competency standard for pleading guilty is the same as the competency standard for

11

standing trial. Id. at 397. As long as a defendant “has sufficient present ability to consult

12

with his lawyer with a reasonable degree of rational understanding and . . . has a rational

13

as well as factual understanding of the proceedings against him,” he is competent to plead

14

guilty. Dusky v. U.S., 362 U.S. 402 (1960); see also Godinez, 509 U.S. at 399.

15

The Nevada Supreme Court rejected this claim on direct appeal:

16

On appeal from a district court’s denial of a motion to withdraw a guilty plea,
this court will presume that the lower court correctly assessed the validity of
the plea, and we will not reverse the lower court’s determination absent a
clear showing of an abuse of discretion. Appellant contends that his guilty
plea was unknowing and involuntary because he suffered from intellectual
deficiencies, including learning disabilities and an IQ of 67, and he was
under the influence of antipsychotic and antidepressant medication at the
time he entered his plea. After reviewing the pleadings and the entire
record, the district court denied appellant’s motion on the grounds that there
was no showing that his guilty plea was unknowing or involuntary as he has
been involved and directing several of the important decisions in his case
of his own volition and that appellant’s regret or change of heart is
insufficient to withdraw the plea. As to appellant’s claim that his plea was
unknowing and involuntary based on the influence of medication, he did not
make that argument in his motion to withdraw his guilty plea below and
therefore we need not consider it.

17
18
19
20
21
22
23
24
25
26
27
28

(ECF No. 45-25 at 2-3 (internal citations and quotation marks omitted).)
Second, in a closely related claim, appellant contends that the district court
abused its discretion by not conducting a competency hearing before
accepting his guilty plea because the district court should have questioned
his competency based on the numerous orders it signed to transport him
for psychological evaluation, his alleged intellectual deficiencies described
9

App.029
Case 3:09-cv-00316-MMD-WGC Document 58 Filed 05/11/18 Page 10 of 16

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16

above, and the influence of medication. However, those matters were
insufficient to cause the district court to question his competency and there
is no indication in the record that the district court was aware that appellant
was on medication at the time of his guilty plea. Further, the district court
had the opportunity to observe appellant’s demeanor during the plea
canvass. We therefore conclude that appellant failed to show that the district
court abused its discretion in this regard.
(Id. at 3-4 (internal citations and quotation marks omitted).)
In its order affirming the denial of the state postconviction petition, the Nevada
Supreme Court also held:
First, appellant contends that the district court erred by denying his claim
that his guilty plea was not knowingly, voluntarily, and intelligently entered
because he suffers from intellectual disabilities and was under the influence
of medication at the time the plea was entered. We conclude that no relief
is warranted. Appellant challenged the validity of his plea on appeal from
his judgment of conviction. This court considered and rejected the issues
surrounding his intellectual disabilities, and reconsideration of those issues
is barred by the law-of-the-case. Regarding appellant’s contention that his
plea was invalid because it was entered while he was under the influence
of medications, appellant does not specify the medications he was taking at
the time he entered his plea, the effect they had on his mental state, or how
they rendered his plea involuntary. Therefore, appellant fails to demonstrate
that the district court erred by denying these claims without conducting an
evidentiary hearing.
(ECF No. 47-7 at 2-3 (internal citations and quotation marks omitted).)

17

During the plea canvass, in response to the Court’s questioning, Mayo stated that

18

he understood the charge; he did not need the Court to read the charge aloud again; he

19

had read and understood the entire guilty plea agreement; he understood what rights he

20

was giving up; he had no questions at that time; no one had made him any promises

21

about his sentence; and he was entering into the guilty plea freely and voluntarily. (ECF

22

No. 19-8.) The following exchange occurred:

23
24
25
26
27
28

The Court: Are you in fact entering a guilty plea today, sir, to second degree
murder with use of a deadly weapon because on or about the 5 th or, excuse
me. On or about or between the 5th day of August, 2006 and the 6th day of
August, 2006, here in Clark County, State of Nevada, you did then and there
willfully, feloniously, and without authority of law, kill Jesus EscotoGonzales, a human being, by shooting him with a firearm yourself and/or
aiding and abetting or engaging in a conspiracy where you and another
person who provided a firearm to you demanded a wallet and/or money
from Jesus Escoto-Gonzales and you shot him and fled the scene of that
crime with another person you acted in concert throughout, 10

App.030
Case 3:09-cv-00316-MMD-WGC Document 58 Filed 05/11/18 Page 11 of 16

1

The Defendant: Yes.

2

The Court: -- meaning the two of you acted together –

3

The Defendant: Yes.

4

The Court: -- with purpose?

5

The Defendant: Yes.

6
7

(Id. at 7-8.) The court thereafter accepted the plea as freely and voluntarily entered. (Id.

8

at 8.)

9

Prior to the guilty plea agreement, Mayo’s counsel had filed a motion to suppress

10

his statement to police. (ECF No. 18-34.) The transcript of the police interview reflects

11

that Mayo was lucid, described his version of events with some detail, and consistently

12

maintained that it was his “supposed” friend, not Mayo, who fired the gun. (Id.)

13

Mayo’s counsel filed a sentencing memorandum on September 13, 2006. (ECF

14

No. 19-9.) The memorandum detailed the following: Mayo’s father was never in his life;

15

he has three siblings; and none of the children have the same father. Child Protective

16

Services removed the children from their mother, Tanisha Mayo, in 2002. The family was

17

very poor and ultimately Ruby Mayo, their grandmother, took them in. Mayo was

18

diagnosed with a learning disability and placed in special education classes; he dropped

19

out of high school at age fifteen. He was prescribed Seroquel, Prozac and Remeron for

20

depression and sleeping difficulties. Mayo stopped taking Seroquel because it caused

21

blackouts. He suffered physical abuse by his mother’s boyfriend from age ten to thirteen.

22

He started abusing drugs at a young age. (Id.)

23

In March 2007, Mayo’s counsel filed a supplement to Mayo’s pro se motion to

24

withdraw guilty plea, stating that when Mayo was in fifth grade, his IQ was determined to

25

be 67, which is considered mildly mentally retarded. (ECF No. 19-21; ECF No. 19-22.)

26

A February 2004 psychological evaluation by psychologist Michelle A. Granley

27

referred by Spring Mountain Treatment Center was apparently part of the state-court

28

record. (ECF No. 20-25.) It stated the following:
11

App.031
Case 3:09-cv-00316-MMD-WGC Document 58 Filed 05/11/18 Page 12 of 16

1
2
3
4
5
6
7
8

Demondrey [sic] [age 15 at the time of the test] was administered the
Trailmaking Test as a brief neurological screening. He had significant
difficulties completing this task and his time was almost double that required
of those in his age range. Demondrey was therefore administered the
Bender Visual Motor Gestalt Test to further assess for neurological
difficulties. He had 9 developmental errors and 7 brain injury scored errors.
This resulted in a developmental age range of 5-6 to 5-11 years. This is
significant, indicating possible neurological impairment. Additional concerns
on the Bender performance included poor planning abilities and the
likelihood of impulsiveness, aggression and acting out behaviors . . . . He is
likely experiencing some type of neurological dysfunction that should be
further evaluated.
(Id. at 5, 7.)

9

The record reflects that Mayo lived a difficult childhood, suffered physical abuse at

10

home, and abused drugs. He also had intellectual and behavioral challenges in school.

11

However, Mayo has not shown that the court had a basis to question his competency to

12

understand and freely enter into the guilty plea. In fact, the plea canvass and the transcript

13

of Mayo’s interview with police investigators both belie this contention. Mayo has failed to

14

demonstrate that the Nevada Supreme Court’s decision on federal ground 3 was contrary

15

to, or involved an unreasonable application of, clearly established federal law, as

16

determined by the U.S. Supreme Court, or was based on an unreasonable determination

17

of the facts in light of the evidence presented in the state court proceeding. 28 U.S.C. §

18

2254(d). Accordingly, ground 3 is denied.

19

C.

Ground 4

20

Mayo alleges that his plea counsel rendered ineffective assistance when counsel

21

advised seventeen-year-old Mayo to enter into the guilty plea: (1) without thoroughly

22

investigating a defense based on Mayo’s severe intellectual deficits and emotional

23

instability; (2) without adequately explaining the agreement and Mayo’s alternatives; (3)

24

while incorrectly certifying that Mayo was not under the influence of drugs.

25

He also argues as ground 4(4) that counsel was ineffective at the plea hearing

26

because he failed to: (a) present pertinent medical and educational records highlighting

27

Mayo’s severe intellectual deficits and emotional instability at the time he entered his

28

guilty plea and request accommodations for such disabilities at the plea canvass; and (b)
12

App.032
Case 3:09-cv-00316-MMD-WGC Document 58 Filed 05/11/18 Page 13 of 16

1

inform the court of the antipsychotic and antidepressant medications that Mayo was

2

taking at the time of the plea (ECF No. 17 at 18-27).

3

Considering these claims on direct appeal, the Nevada Supreme Court concluded

4

that based on the record Mayo failed to demonstrate that his counsel had reason to

5

question Mayo’s competency, and therefore, he failed to show ineffective assistance.

6

(ECF No. 45-25 at 4-5.)

7

In affirming the denial of the state postconviction petition, the Nevada Supreme

8

Court reasoned that Mayo failed to identify what alternative defenses counsel should have

9

investigated or what laws counsel should have explained to him before he entered his

10

plea, and failed to explain how requesting an accommodation for his intellectual

11

disabilities during the plea canvass would have caused him to reject the plea. (ECF No.

12

47-7 at 3.)

13

As discussed with federal ground 3, these contentions of ineffective assistance of

14

counsel are belied by the record. Mayo has not demonstrated that counsel had a basis to

15

question Mayo’s ability to voluntarily and knowingly enter into the guilty plea based on

16

intellectual deficits and/or medication that Mayo was taking at the time. He does not

17

specify what defenses counsel failed to pursue or what other options counsel failed to

18

explain. Mayo has not shown that the Nevada Supreme Court’s decision on federal

19

ground 4 was contrary to, or involved an unreasonable application of, clearly established

20

federal law, as determined by the U.S. Supreme Court, or was based on an unreasonable

21

determination of the facts in light of the evidence presented in the state court proceeding.

22

28 U.S.C. § 2254(d). Federal habeas relief is, therefore, denied as to ground 4.

23

D.

Ground 2

24

Mayo contends that counsel was ineffective for (i) failing to object to the mandatory

25

deadly weapon sentencing enhancement; and (ii) failing to appeal the imposition of such

26

sentence. (ECF No. 17 at 8-10.)

27

Respondents point out that Mayo never presented these claims to the Nevada

28

Supreme Court, and therefore, they are unexhausted. (ECF No. 52 at 10-11.) Mayo
13

App.033
Case 3:09-cv-00316-MMD-WGC Document 58 Filed 05/11/18 Page 14 of 16

1

argues that if the claims are unexhausted, they would be procedurally barred as untimely

2

and successive if Mayo attempted to return to state court to present the claims. (ECF No.

3

55 at 10-12.)

4

As a general rule, a federal court cannot review a claim that was procedurally

5

defaulted by a state court. Coleman v. Thompson, 501 U.S. 722, 729 (1991). However, a

6

claim that was procedurally defaulted by the state court can be considered on the merits

7

by a federal court if a petitioner can show cause and prejudice. Wainwright v. Sykes, 433

8

U.S. 72, 87 (1977). The Court in Coleman held that ineffective assistance of counsel in

9

postconviction proceedings does not establish cause for the procedural default of a claim.

10

Coleman, 501 U.S. at 750. In Martinez v. Ryan, 566 U.S. 1, 17 (2012), the Court

11

established a “narrow exception” to that rule. The Court explained that, under Martinez,

12

cause can be established where a defendant did not have counsel during the initial post-

13

conviction proceedings or appointed counsel was ineffective. To demonstrate prejudice

14

under Martinez, a petitioner must demonstrate the underlying ineffective assistance of

15

trial counsel claim is a “substantial one,” by showing that it has some merit. Id. at 17;

16

Clabourne v. Ryan, 745 F.3d 362, 377 (9th Cir. 2014).

17

Here, Mayo argues that his state postconviction counsel were ineffective for not

18

setting forth the claim that plea counsel was ineffective for failing to object to and appeal

19

the imposition of the mandatory equal and consecutive sentence. For the purposes of the

20

disposition of federal ground 2, this court will assume, without deciding, that Mayo could

21

demonstrate cause if this claim were to be procedurally barred in state court.

22

Nevertheless, he cannot demonstrate prejudice. The claim cannot be considered

23

“substantial” in light of this court’s disposition of federal ground 1, Mayo’s underlying

24

substantive claim that his mandatory consecutive sentence is unconstitutional. Mayo has

25

not shown that he had an Eighth Amendment right to individualized sentencing, and

26

therefore, he cannot show a reasonable probability of a different outcome had his counsel

27

objected to or appealed the imposition of the mandatory consecutive term required by

28

state law at that time. Thus, ground 2 is denied.
14

App.034
Case 3:09-cv-00316-MMD-WGC Document 58 Filed 05/11/18 Page 15 of 16

The Petition, therefore, is denied in its entirety.

1
2

V.

CERTIFICATE OF APPEALABILITY

3

This is a final order adverse to Petitioner. As such, Rule 11 of the Rules Governing

4

Section 2254 Cases requires this Court to issue or deny a certificate of appealability

5

(“COA”). Accordingly, the Court has sua sponte evaluated the claims within the Petition

6

for suitability for the issuance of a COA. See 28 U.S.C. § 2253(c); Turner v. Calderon,

7

281 F.3d 851, 864-65 (9th Cir. 2002).

8

Pursuant to 28 U.S.C. § 2253(c)(2), a COA may issue only when the petitioner

9

“has made a substantial showing of the denial of a constitutional right.” With respect to

10

claims rejected on the merits, a petitioner “must demonstrate that reasonable jurists would

11

find the district court’s assessment of the constitutional claims debatable or wrong.” Slack

12

v. McDaniel, 529 U.S. 473, 484 (2000) (citing Barefoot v. Estelle, 463 U.S. 880, 893 & n.4

13

(1983)). For procedural rulings, a COA will issue only if reasonable jurists could debate

14

(1) whether the petition states a valid claim of the denial of a constitutional right and (2)

15

whether the court’s procedural ruling was correct. Id.

16

Having reviewed its determinations and rulings in adjudicating Mayo’s petition, the

17

Court finds that reasonable jurists may find its decision on ground 3 to be debatable

18

pursuant to Slack. The court therefore grants a certificate of appealability with respect to

19

ground 3 only.

20

VI.

It is therefore ordered that the amended petition (ECF No. 17) is denied in its

21
22

CONCLUSION

entirety.
It is further ordered that a certificate of appealability is granted as to ground 3.

23
24

///

25

///

26

///

27

///

28

///
15

App.035
Case 3:09-cv-00316-MMD-WGC Document 58 Filed 05/11/18 Page 16 of 16

It is further ordered that the Clerk enter judgment accordingly and close this

1
2
3

case.
DATED THIS 11th day of May 2018.

4
5

MIRANDA
M. DU
MI
M
RANDA M
UNITED STATES DISTRICT JUDGE

6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

16

App.036

IN THE SUPREME COURT OF THE STATE OF NEVADA
DEMONDRAY D. MAYO,
Appellant,
vs.
THE STATE OF NEVADA,
Respondent.

No. 63512

ILED
1 3 2013

ORDER OF AFFIRMANCE
This is an appeal under NRAP 4(c) from a judgment of
conviction, pursuant to a guilty plea, of second-degree murder with the use
of a deadly weapon.

Eighth Judicial District Court, Clark County;

Jennifer P. Togliatti, Judge. Appellant raises four claims on appeal.
First, appellant argues that the district court abused its
discretion by denying his presentence motion to withdraw his guilty plea
because he was incompetent at the time he entered his guilty plea. NRS
176.165 permits a defendant to file a motion to withdraw a guilty plea
before sentencing.

The district court may grant such a motion in its

discretion for any substantial reason that is fair and just. State v. Second

Judicial Dist. Court, 85 Nev. 381, 385, 455 P.2d 923, 926 (1969). "On
appeal from a district court's denial of a motion to withdraw a guilty plea,
this court 'will presume that the lower court correctly assessed the. validity
of the plea, and we will not reverse the lower court's determination absent
a clear showing of an abuse of discretion."' Riker v. State, 111 Nev. 1316,
1322, 905 P.2d 706, 710 (1995) (quoting Bryant v. State, 102 Nev. 268, 272,
721 P.2d 364, 368 (1986)). Appellant contends that his guilty plea was
unknowing and involuntary because he suffered from intellectual
SUPREME COURT

OF
NEVADA

(OJ 1947A

......,,

,,,--,

•,

~

EOR 0023

App.037
se 3:09-cv-00316-MMD-WGC Document 45-25 Filed 02/24/16

Page 3 of 7

deficiencies, including learning disabilities and an IQ of 67, and he was
under the influence of antipsychotic and antidepressant medication at the
time he entered his plea. After reviewing the pleadings and the "entire
record," the district court denied appellant's motion on the grounds that
there was no showing that his guilty plea was unknowing or involuntary
as he "has been involved and directing several of the important decisions
in his case of his own volition" and that appellant's "regret or change of
heart" is insufficient to withdraw the plea. As to appellant's claim that his
plea was unknowing and involuntary based on the influence of medication,
he did not make that argument in his motion to withdraw his guilty plea
below and therefore we need not consider it. 1 See Davis v. State, 107 Nev.
600, 606, 817 P.2d 1169, 1173 (1991) (holding that this court need not
consider arguments raised on appeal that were not presented to the
district court in the first instance), overruled on other grounds by Means v.

State, 120 Nev. 1001, 103 P.3d 25 (2004).

Based on the record, we

conclude that appellant has not demonstrated that the district court
abused its discretion by denying his motion to withdraw his guilty plea.
Second, in a closely related claim, appellant contends that the
district court abused its discretion by not conducting a competency
hearing before accepting his guilty plea because the district court should
11n

his opening brief, appellant requests this court to take judicial
notice of information concerning the medication he was taking at the time
he entered his guilty plea. We reject appellant's request because he is
required to seek such relief by filing a separate motion, see NRAP 27(a)(l).
Further, appellant concedes that the information was not presented to the
district court, and this court generally "will not look outside the district
court record in deciding a case." See Carson Ready Mix v. First Nat'l Bk.,
97.Nev. 474,476, 635 P.2d 276, 277 (1981).

SUPREME COURT

OF

NEVADA
(0) 1947A

2

~

EOR 0024

App.038
C se 3:09-cv-00316-MMD-WGC Document 45-25 Filed 02/24/16

Page 4 of 7

have questioned his competency based on the numerous orders it signed to
transport him for psychological evaluation, his alleged intellectual
deficiencies described above, and the influence of medication. However,
those matters were insufficient to cause the district court to question his
competency and there is no indication in the record that the district court
was aware that appellant was on medication at the time of his guilty plea.
Further, the district court had the opportunity to observe appellant's
demeanor during the plea canvass. See Graves v. State, 112 Nev. 118, 124,
912 P.2d 234, 238 (1996) ("Through face-to-face interaction in the
courtroom, the trial judges are much more competent to judge a
defendant's understanding than this court.
substitute for demeanor observation.").

The cold record is a poor

We therefore conclude that

appellant failed to show that the district court abused its discretion in this
regard. See NRS 178.405; Jones v. State, 107 Nev. 632, 637, 817 P.2d
1179, 1182 (1991) ("[I]n the absence of reasonable doubt as to a
defendant's competence, the district judge is not required to order a
competency examination."); Melchor-Gloria v. State, 99 Nev. 174, 179-80,
660 P.2d 109, 113 (1983) (observing that competency requires the
defendant to have sufficient present ability to consult with his lawyer with
a reasonable degree of rational understanding and to have a rational and
factual understanding of the proceedings against him).
Third, appellant argues that his counsel was ineffective for
advising him to plead guilty despite his intellectual deficiencies and
medicated state at the time he entered his guilty plea.

In his motion,

below, appellant argued that counsel was ineffective for advising him to
plead guilty due to his intellectual deficiencies but not on the ground that
he was under the influence of medication when he entered his guilty plea.
SUPREME COURT

OF
NEVADA

3

(0) 1947A ~

EOR 0025

App.039
se 3:09-cv-00316-MMD-WGC Document 45-25 Filed 02/24/16

Page 5 of 7

To prove ineffective assistance of counsel, a petitioner must demonstrate
that counsel's performance was deficient in that it fell below an objective
standard of reasonableness, and resulting prejudice such that there is a
reasonable probability that, but for counsel's errors, the outcome of the
proceedings would have been different.

Strickland v. Washington, 466

U.S. 668, 687-88 (1984); Warden v. Lyons, 100 Nev. 430, 432-33, 683 P.2d
504, 505 (1984) (adopting the test in Strickland).

To demonstrate

prejudice sufficient to invalidate the decision to enter a guilty plea, a
petitioner must demonstrate a reasonable probability that, but for
counsel's errors, petitioner would not have pleaded guilty and would have
insisted on going to trial. Hill v. Lockhart, 474 U.S. 52, 58-59 (1985);

Kirksey v. State, 112 Nev. 980, 988, 923 P.2d 1102, 1107 (1996). Both
components of the inquiry must be shown. Strickland, 466 U.S. at 697.
We give deference to the district court's factual findings if supported by
substantial evidence and not clearly erroneous but review the court's
application of the law to those facts de novo. Lader v. Warden, 121 Nev.
682, 686, 120 P.3d 1164, 1166 (2005). Based on the record before us, we
conclude that appellant failed to demonstrate that counsel had a sufficient
basis to question appellant's competency and therefore has not shown that
counsel was ineffective in this regard.
Fourth, appellant argues that he was denied his Fifth and
Eighth Amendment rights to individualized sentencing where the district
court imposed an equal and consecutive sentence for the deadly weapon
enhancement.

In this, he argues that the district court abused its

discretion by denying his motion to correct an illegal sentence based on the
imposition of the deadly weapon enhancement.

A few months after

sentencing, the Legislature amended NRS 193.165 to eliminate the equal
SUPREME COURT

OF
NEVADA

(0) 1947A

4

~

EOR 0026

App.040
C se 3:09-cv-00316-MMD-WGC Document 45-25 Filed 02/24/16

Page 6 of 7

and consecutive sentence required to be imposed for a deadly weapon
enhancement. See 2007 Nev. Stat., ch. 525, § 13, at 3188. This court has
held, however, "that the penalty for the use of a deadly weapon should be
the one in effect at the time the defendant used a weapon to commit the
primary offense." State v. Second Judicial Dist. Court (Pullin), 124 Nev.
564, 572, 188 P.3d 1079, 1084 (2008). Because the imposition of an equal
and consecutive term was required at the time appellant committed his
crime, the district court did not abuse its discretion by imposing it, and
appellant does not adequately explain how imposing the enhancement was
unconstitutional. 2
Having considered appellant's· arguments and concluded that
no relief is warranted, we
ORDER the judgment of conviction AFFIRMED.

Gibbons

ci.££

J.

' J.

Saitta

We note that appellant appealed the denial of his motion to correct
an illegal sentence based on the deadly weapon enhancement, and this
court concluded that his sentence was facially legal because it "fell within
the permissible range of punishment in effect at the time he committed his
crime." Mayo v. State, Docket No. 51040 (Order of Affirmance, January
30, 2009).
2

SUPREME COURT
OF

NEVADA
(0) 1947A

5

~

EOR 0027

App.041
C se 3:09-cv-00316-MMD-WGC Document 45-25 Filed 02/24/16

cc:

Page 7 of 7

Hon. Jennifer P. Togliatti, District Judge
Law Office of Lisa Rasmussen
Attorney General/Carson City
Clark County District Attorney
Eighth District Court Clerk

SUPREME COURT
OF

NEVADA
(0) 1947A

6

~

EOR 0028

App.042

App.043

